OIG Investigative Reports, Ex-Financial Aid Director of Manhattan College Gets Prison Term
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
New York October 2, 2002
For Information Contact: U.S. ATTORNEY'S OFFICE
MARVIN SMILON, HERBERT HADAD,
MICHAEL KULSTAD
PUBLIC INFORMATION OFFICE
(212) 637-2600, (718) 422-1870
JONATHAN LEIKEN
(914) 993-1914
EX-FINANCIAL AID DIRECTOR OF MANHATTAN COLLEGE GETS PRISON TERM FOR DEFRAUDING DEPARTMENT OF EDUCATION
JAMES B. COMEY, the United States Attorney for the Southern District of New York, announced that RAYMOND B. KRULL, the former Financial Aid Director of Manhattan College in the Bronx, was sentenced in White Plains federal court today to 23 months in prison for defrauding the U.S. Department of Education out of more than $200,000.  The sentence, which was imposed by United States District Judge CHARLES L. BRIEANT, included an order of restitution in the amount of $167,670.
KRULL previously pled guilty to a one-count felony charging him with student financial assistance fraud.  KRULL admitted in a court proceeding that, while he was the Financial Aid Director for Manhattan College in the Bronx, he completed a series of fraudulent student loan applications in his own name and received in excess of $160,000 to which he was not entitled.
Mr. COMEY praised the investigative efforts and assistance of the Department of Education, Office of the Inspector General and the FBI.
Assistant United States Attorney JONATHAN LEIKEN is in charge of the prosecution.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov